<html>
<title> - ASSESSING U.S. POLICY ON PEACEKEEPING OPERATIONS IN AFRICA</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
       ASSESSING U.S. POLICY ON PEACEKEEPING OPERATIONS IN AFRICA

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON AFRICA, GLOBAL HEALTH,
                            AND HUMAN RIGHTS

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 13, 2012

                               __________

                           Serial No. 112-186

                               __________

        Printed for the use of the Committee on Foreign Affairs


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 ______


                  U.S. GOVERNMENT PRINTING OFFICE
75-861                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="086f7867486b7d7b7c606d6478266b676526">[email&#160;protected]</a>  


                      COMMITTEE ON FOREIGN AFFAIRS

                 ILEANA ROS-LEHTINEN, Florida, Chairman
CHRISTOPHER H. SMITH, New Jersey     HOWARD L. BERMAN, California
DAN BURTON, Indiana                  GARY L. ACKERMAN, New York
ELTON GALLEGLY, California           ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
DONALD A. MANZULLO, Illinois         BRAD SHERMAN, California
EDWARD R. ROYCE, California          ELIOT L. ENGEL, New York
STEVE CHABOT, Ohio                   GREGORY W. MEEKS, New York
RON PAUL, Texas                      RUSS CARNAHAN, Missouri
MIKE PENCE, Indiana                  ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
CONNIE MACK, Florida                 THEODORE E. DEUTCH, Florida
JEFF FORTENBERRY, Nebraska           BEN CHANDLER, Kentucky
MICHAEL T. McCAUL, Texas             BRIAN HIGGINS, New York
TED POE, Texas                       ALLYSON SCHWARTZ, Pennsylvania
GUS M. BILIRAKIS, Florida            CHRISTOPHER S. MURPHY, Connecticut
JEAN SCHMIDT, Ohio                   FREDERICA WILSON, Florida
BILL JOHNSON, Ohio                   KAREN BASS, California
DAVID RIVERA, Florida                WILLIAM KEATING, Massachusetts
MIKE KELLY, Pennsylvania             DAVID CICILLINE, Rhode Island
TIM GRIFFIN, Arkansas
TOM MARINO, Pennsylvania
JEFF DUNCAN, South Carolina
ANN MARIE BUERKLE, New York
RENEE ELLMERS, North Carolina
ROBERT TURNER, New York
                   Yleem D.S. Poblete, Staff Director
             Richard J. Kessler, Democratic Staff Director
                                 ------                                

        Subcommittee on Africa, Global Health, and Human Rights

               CHRISTOPHER H. SMITH, New Jersey, Chairman
JEFF FORTENBERRY, Nebraska           KAREN BASS, California
TOM MARINO, Pennsylvania             RUSS CARNAHAN, Missouri
ANN MARIE BUERKLE, New York          THEODORE E. DEUTCH, 
ROBERT TURNER, New York                  Florida<greek-l>As of 6/19/
                                         12 deg.


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable Johnnie Carson, Assistant Secretary, Bureau of 
  African Affairs, U.S. Department of State......................     5
The Honorable Esther Brimmer, Assistant Secretary, Bureau of 
  International Organization Affairs, U.S. Department of State...    20

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Johnnie Carson: Prepared statement.................     8
The Honorable Esther Brimmer: Prepared statement.................    23
The Honorable Christopher H. Smith, a Representative in Congress 
  from the State of New Jersey, and chairman, Subcommittee on 
  Africa, Global Health, and Human Rights:
  Report to Congress on United Nations Efforts to Prevent 
    Trafficking in Persons and Sexual Exploitation and Abuse in 
    UN Peacekeeping Missions.....................................    60
  Sexual Exploitation and Abuse..................................    68

                                APPENDIX

Hearing notice...................................................    72
Hearing minutes..................................................    73
Written response from the Honorable Esther Brimmer to question 
  submitted for the record by the Honorable Christopher H. Smith.    74


       ASSESSING U.S. POLICY ON PEACEKEEPING OPERATIONS IN AFRICA

                              ----------                              


                      THURSDAY, SEPTEMBER 13, 2012

              House of Representatives,    
         Subcommittee on Africa, Global Health,    
                                  and Human Rights,
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 3 o'clock 
p.m., in room 2200 Rayburn House Office Building, Hon. 
Christopher H. Smith (chairman of the subcommittee) presiding.
    Mr. Smith. The subcommittee will come to order, and good 
afternoon. And let me first apologize for being a bit late. We 
did have votes and then all of us had a little trouble getting 
back because there is so much going on the floor, so again I 
apologize to you.
    Good afternoon. Today's hearing will examine U.S. policy on 
international peacekeeping operations in Africa, our material 
support, and other support for peacekeeping operations in 
African countries.
    The U.S. Government contributes more than $1 billion 
annually for African peacekeeping, most recently dedicating 
$1.6 billion for Fiscal Year 2012. Today's hearing offers an 
opportunity to look at how we evaluate the effectiveness of 
peacekeeping operations that we support in Africa.
    There are several current peacekeeping operations in Africa 
encouraged and/or supported by the U.S. Government, and others 
are being planned even now. The effectiveness of peacekeeping 
operations have been called into question in terms of planning 
and execution. This is critical at a time when important 
peacekeeping operations in Mali are in the planning stage. 
Eventually the length of peacekeeping operations often run into 
decades, and new models of peacekeeping operations such as 
hybrids will be discussed.
    Finally, but also of significant importance, we will be 
inquiring as to how well the United Nations is implementing its 
zero tolerance policy with respect to human trafficking and 
other forms of sexual exploitation and abuse by peacekeeping 
personnel. I personally have chaired seven hearings--that is 
seven--that highlighted that issue and other peacekeeping 
issues in this, the 112th Congress, alone, most recently a June 
29, 2012, hearing on Mali. The Trafficking Victims Protection 
Act that I sponsored in 2000, and its reauthorizations, also 
contain provisions related to peacekeeping operations including 
the prevention of human trafficking by peacekeeping personnel 
as part of the minimum standards for the elimination of 
trafficking in persons.
    Peacekeeping refers to activities that create conditions 
favoring lasting peace. However, it is often associated with 
other related concepts, peacemaking and peacebuilding. 
Peacemaking involves dealing with conflicts in progress and 
focuses on diplomatic action to bring hostile parties to a 
negotiated settlement. Peacebuilding describes outside 
interventions designed to prevent the start or resumption of 
violent conflict within a nation by creating a sustainable 
peace. As the concept of peacekeeping has evolved, it now 
includes all three elements.
    The first U.N. peacekeeping mission was in 1948, when a 
small, armed observer force was sent to monitor a buffer zone 
between Arabs and Israelis in the Middle East. Between then and 
the end of the Cold War in the early 1990s, there were 18 U.N. 
peacekeeping missions. Since 1990, however, the U.N. 
peacekeeping has risen to more than 50 missions and the number 
of peacekeepers worldwide has grown to nearly 100,000. The 
record of success of U.N. peacekeeping missions in Africa has 
been mixed. A few of them have been credited as qualified 
successes, such as the U.N. mission in Sierra Leone. The U.N. 
operation in Cote d'Ivoire also was considered successful but 
remains incomplete.
    Unfortunately other U.N. operations have not been as 
successful. For example, the U.N. mission in Somalia which 
operated from 1992 to 1993 is clearly seen as such as a 
failure. We all remember the infamous Black Hawk Down incident 
in which 18 U.S. soldiers were killed following the shooting 
down of an American helicopter. The repercussions of that 
disaster have affected the subsequent, I believe, unwillingness 
of the U.S. Government to commit U.S. troops to peacekeeping 
operations in Africa. And I remember so well, personally, when 
Les Aspin came before the Hill and was asked in a pointed way, 
why weren't the recommendations by the commanders on the ground 
for more capabilities given credence? And he said he didn't 
think it would fly in the Congress. We weren't asked. And I 
think it would have flown and it would have been supported 
robustly, but regrettably it was not. And we now have regional 
organizations developing and managing peacekeeping operations, 
sometimes in concert with U.N. or sometimes on their own. The 
African Union, the Economic Community of West African States, 
and even NATO have engaged in peacekeeping operations on the 
African continent. The changes in peacekeeping operations in 
Africa will have a profound impact on U.S. policy and financial 
and other support for such operations.
    As I mentioned earlier, sex trafficking and other forms of 
sexual exploitation and abuse by U.N. peacekeeping personnel 
are issues of serious concern. U.N. peacekeeping missions have 
been subject to repeated accusations of sexual exploitation and 
abuse of local women and young girls by foreign peacekeepers 
since at least 2001. The U.N. claims it has effectively 
addressed this problem, but we need to ensure that the blue 
helmets that are supposed to instill hope that peace is at hand 
don't create fear, abuse, and exploitation by the very 
protectors sent to help.
    And finally I would say paranthetically to that, we have 
held in this subcommittee, three hearings on what was going on 
in Democratic Republic of the Congo. I went there and met with 
peacekeepers as well many of the women who had been exploited, 
and young girls in shelters, and was shocked, frankly, how for 
$1 or a loaf of bread, young 13- and 14-year-olds were being 
abused by U.N. peacekeepers. I am happy to say that at the 
time, Jane Holl Lute, who was then working for the U.N. and who 
had pushed hard within the U.N. system for the zero tolerance 
policy, made a major difference, and she is now as we all know, 
number two over at Department of Homeland Security. So U.S. 
leadership there was very robust and very, I think, effective, 
but there still is a persistent problem. Kofi Annan, to his 
credit, announced a zero tolerance policy, just like George 
Bush did for our military and deployments overseas, NATO did 
the same thing. But at the time we weren't talking about zero 
tolerance, but zero compliance, and perhaps you might want to 
speak whether or not there have been real gains made in 
ensuring that U.N. and AU peacekeepers are not complicit in any 
way.
    I would like to yield to my good friend and colleague, Ms. 
Bass, the ranking member, for any comments she might have.
    Ms. Bass. Thank you, Mr. Chairman, and once again of 
course, thank you for holding this hearing and for your 
leadership on this issue.
    I wanted to just take a moment, of course, to offer my 
deepest sympathies to our friends from the State Department. I 
am sure that both of you knew the Ambassador, and all of us 
have been shocked by what occurred, but also what is occurring. 
And I know it is not the subject of this hearing, but if there 
is some update that you could provide about the status of our 
Embassies in Yemen and Tunisia and Egypt, that would be 
appreciated.
    Today's hearing on peacekeeping operations is timely as we 
continue to see a serious need for these missions across the 
continent, especially in the Sudans, the Great Lakes region and 
in West Africa. It is my hope that today's hearing will not 
merely bring to the surface how we further strengthen these 
peacekeeping commitments and coordination but that we can 
acknowledge the tremendous benefit that peacekeepers play in 
preventing and addressing conflict in rapidly changing 
environments where there is clearly a need to promote and 
sustain peace, stability and security.
    I want to offer my appreciation to Ambassador Carson and 
Assistant Secretary Brimmer for participating in today's 
hearing, and for your steadfast efforts on this and many other 
areas that are bettered in no small part to your leadership and 
your vision.
    The United Nations reports that in 2012 and 2013, the U.N. 
peacekeeping operations budget, which just began, is estimated 
at $7.23 billion. As we will hear from the witnesses today, I 
would appreciate greater clarity on the success of U.S. funds 
in supporting peacekeeping efforts across Africa, and in what 
ways the Global Peace Operations Initiative, peacekeeping 
operations and the contributions for international peacekeeping 
account budget requests are coordinated. As we make tough 
budget decisions while at the same time see protracted 
conflicts across the continent, I certainly don't believe that 
now is the time to turn our backs on peacekeeping, particularly 
as tensions grow in places like Mali. I am interested in making 
sure that with limited resources we spend them effectively to 
protect populations in harm's way and promote security toward 
greater freedom and lasting peace.
    Let me add that U.N. peacekeeping has a long history as was 
described by my colleague. The benefits of peacekeeping have 
definitely been clear. I will just give one example. A GAO 
report notes that U.N. peacekeeping is eight times less 
expensive than funding U.S. forces with a similar mandate. 
These benefits have also long been recognized by both political 
parties. Over the last decade the U.N. Security Council, with 
support from both the Bush and Obama administrations, 
authorized a nearly three-fold increase in the number of 
peacekeeping personnel serving in the field. And the reason for 
this of course is clear. U.N. peacekeeping operations are 
firmly in America's interest. Countries undergoing conflict 
threaten the national and economic security of the U.S., risk 
becoming safe havens for terrorists and criminals and often 
feature serious problems of human rights abuses and human 
deprivation. By allowing the U.S. to share the burden for 
addressing these issues it is clear that the success of these 
missions is in our long-term interest.
    I also wanted to raise, as my colleague did, the sexual 
exploitation that we of course believe must continue to be 
prioritized, and wanted to know if you would comment on the 
assessment of training programs of military and police 
personnel, the compliance that Congressman Smith was talking 
about. Are the peacekeepers that perpetuate and exploit those 
that are charged, actually are they charged and held 
accountable? With the implementation of the relatively new 
global field support strategy, reforms appear to be underway to 
more effectively address the management of global inventories 
and logistics. Are you satisfied with these reforms? Are they 
hitting their benchmarks? Are the various missions getting the 
resources they need to credibly fulfill their mandate?
    I also wanted to raise Mali. We talked about Mali before, 
but also next week we are going to look at developments and 
growing tensions between the DRC and Rwanda, and both of these 
provide serious concerns for us. The Mali situation calls for a 
peacekeeping force. And secondarily, in the DRC, do you believe 
a neutral force to monitor the DRC/Rwanda border is needed, and 
would the U.N. mission in DRC be the appropriate force to 
undertake such a mission?
    Thank you, and I look forward to your testimony.
    Mr. Smith. Ms. Bass, thank you very much.
    Mr. Turner?
    Mr. Turner. Thank you, Mr. Chairman. I wanted to offer my 
condolences to the members of State for the loss of your 
colleague and some American heroes. I am interested in hearing 
what you have to say. Thank you.
    Mr. Smith. Thank you very much, Mr. Turner.
    I would like to now introduce our very distinguished panel, 
beginning first with Ambassador Johnnie Carson, who serves as 
Assistant Secretary of State in the Bureau of African Affairs, 
a position he has held since May 2009. Ambassador Carson has a 
long and distinguished career in public policy. Over 37 years 
in the Foreign Service including time as our Ambassador to 
Kenya, Uganda, and Zimbabwe. Ambassador Carson has also served 
as the staff director of this subcommittee, so it is always 
great to have you here, anytime you want go back to the other 
side of the dais--and as a Peace Corps volunteer in Tanzania. 
Ambassador Carson is a recipient of numerous prestigious awards 
for his service from the U.S. Department of State.
    Then we will hear from Dr. Esther Brimmer. She currently 
serves as the Assistant Secretary of State in the Bureau of 
International Organization Affairs, a position she has held 
since April 2009. Dr. Brimmer previously worked in the State 
Department in the Office of Policy Planning, and for the 
Undersecretary of Political Affairs where her portfolio 
included peacekeeping. Dr. Brimmer has also worked for the 
Johns Hopkins School of Advanced International Studies, the 
Carnegie Commission on Preventing Deadly Conflict, here in the 
House of Representatives, and with McKinsey & Company, a global 
management consulting firm.
    Ambassador Carson, the floor is yours.

STATEMENT OF THE HONORABLE JOHNNIE CARSON, ASSISTANT SECRETARY, 
      BUREAU OF AFRICAN AFFAIRS, U.S. DEPARTMENT OF STATE

    Mr. Carson. Chairman Smith, Ranking Member Congresswoman 
Bass, Congressman Turner, thank you for the opportunity to 
appear today to talk about peacekeeping in Africa. As members 
of the committee are aware, President Obama's recent 
presidential policy directive identified our efforts to advance 
peace and security on the continent as one of the four pillars 
of the administration's new Africa strategy. This is an area 
where we have witnessed both signifant progress and major 
challenges over the past decade. Angola, Mozambique, Burundi, 
Rwanda, Liberia, and Sierra Leone have progressed from periods 
of prolonged civil conflict to new eras of relative peace and 
stability. Nonetheless, this progress remains fragile in many 
countries, and all too many states are mired still in serious 
conflict including Somalia, the Democratic Republic of the 
Congo, Sudan, and South Sudan.
    Moreover, as illustrated by the ongoing situation in Mali, 
the fragile nature of democratic institutions on the continent 
means that even relatively stable countries can quickly unravel 
and fall back into conflict.
    If we are to assist our African partners in achieving a 
more democratic, prosperous and stable Africa, we must address 
these conflicts. Conflict destabilizes states and borders, 
stifles economic growth and investment and robs young Africans 
of opportunity for an education and better life. To address 
these conflicts we need well resourced U.N., African Union, and 
regional peacekeeping operations.
    My colleague, Assistant Secretary Brimmer, will be focusing 
on the U.N. element of peacekeeping in Africa, and therefore I 
would like to focus my testimony on the efforts of the African 
Union and the subregional organizations to develop their own 
peacekeeping capacities and to conduct operations in support of 
peace and security objectives on the continent. I also want to 
discuss U.S. Government efforts to strengthen African 
peacekeeping capacity at the regional, subregional, and 
national levels.
    The founding of the African Union, or AU, in 2002, brought 
with it the promise of a more robust African regional 
architecture that would one day be capable of addressing and 
coordinating responses to the myriad challenges facing the 
continent. This newfound promise extended to the area of peace 
and security, where the AU set forth a vision for an African 
Peace and Security Architecture. Partially modeled after the 
United Nations and other regional organizations, this 
architecture is designed to enable the African Union to act as 
an active and dynamic adjunct to the work of the United Nations 
in its mission to maintain international peace and security 
including in Africa. The centerpiece of this architecture is 
the AU's African Standby Force, which is comprised of five 
regional standby brigades ready to respond to a range of 
contingencies from providing support to political missions, to 
robust military interventions to prevent genocide. The five 
brigades are the Economic Community of West African States 
Standby Force, the Eastern African Standby Force, the Southern 
African Development Community Brigade, the Central African 
Multinational Force, and the North African Standby Brigade.
    All four sub-Saharan African brigades have taken initial 
steps toward becoming operational including setting up 
headquarters and identifying pledged units from member states. 
They have also participated in a number of multinational 
exercises. The North African Standby Brigade has made 
considerably less progress than the other four sub-Saharan 
brigades. However, none of the brigades is currently capable of 
conducting the range of operations contained within the African 
Standby Forces mandate without significant and ongoing external 
support.
    Although the African Standby Force remains a work in 
progress, the AU and the subregional organizations like ECOWAS 
have not stood idly by in the face of persistent conflict. In 
fact, in many cases the African Union and the subregional 
organizations have proven to be more responsive than the 
broader international community in attempting to address 
serious conflicts in Africa quickly. The African Union deployed 
its first peacekeeping operation to Burundi in 2003, in support 
of the international effort to end the long-running civil war 
there. In 2004, the African Union Mission in Sudan (AMIS) was 
deployed in response to the horrific conflict gripping Darfur. 
Despite the immense challenges and obstructions that faced the 
troop contributors in the mission area, AMIS helped to set the 
conditions and prepare the ground for the deployment for a 
larger and more complex U.N./AU hybrid operation called UNAMID, 
which remains deployed in Darfur to this day. The AU 
authorized, Tanzanian-led intervention, in the Comoros in 2008 
was another example of the region stepping up quickly in 
response to a regional security challenge.
    Somalia best demonstrates the valuable role that the 
African Union can play in terms of regional peacekeeping. The 
African Union Mission in Somalia, AMISOM, has now been 
operating for 5 years in what has been one of the most volatile 
conflict environments in Africa. Over those 5 years, AMISOM, 
comprised of troops from Uganda, Burundi, and Kenya, has 
gradually extended its area of operations from a small enclave 
near the international airport in Mogadishu to encompass all of 
Mogadishu and the surrounding towns. It has done so with the 
support of the United Nations in the form of a logistic support 
package provided through the U.N.
    Support Office for AMISOM. AMISOM is now in the process of 
deploying to additional regions in southwestern Somalia, and 
the recent incorporation of Kenyan forces into AMISOM has 
further extended the mission's reach.
    We think AMISOM has been a relatively strong success story, 
and as many of you know, on Monday of this week the 
Transitional Federal Government effectively went out of 
business in Mogadishu. And over the past year as a result of 
the gains that have been made militarily by AMISOM, we have 
seen a new Constitution written and approved. We have seen the 
election of a new Parliament of approximately 250 members, half 
the size of the old Parliament. We have seen the election of a 
new speaker of Parliament, and on Monday we saw the election of 
a new President. We expect a prime minister and a cabinet to be 
named shortly. None of this would have been possible without 
the work of AMISOM.
    African subregional organizations have also played an 
important role in responding to armed conflicts on the 
continent. ECOWAS responded to the crisis in Liberia and Sierra 
Leone, and set the stage for the subsequent U.N. action.
    The examples I have cited reflect the commitment of the 
African Union, the subregional organizations and member states 
to undertake and participate in peacekeeping missions across 
the continent. However, their participation exposes the 
enormous challenges that many African states face. These 
challenges are a lack of resources. The African Union and 
subregional organizations remain dependent on support from the 
donor community for specialized training for transport and 
equipment, for logistics, for medical facilities, and even in 
some cases for salaries. Sometimes, AU member states also lack 
the capacity to undertake the complex mission planning and 
management that is required to execute complex multinational 
and multiunit operations.
    While these challenges are significant and in some 
instances systemic, I can assure the committee that we in 
Washington and the administration are committed to helping our 
African partners to overcome them. Our peacekeeping assistance 
programs, which are primarily funded through the Global Peace 
Operations Initiative, sometimes called GPOI, and the broader 
Account, PKO, focus on addressing the capability gaps of our 
African partners as well as strengthening the ability of our 
African partners to plan, to train and to deploy and sustain 
peacekeeping operations on their own. These deployment support 
and capacity-building activities are executed through a close 
partnership between the Department of State and the Department 
of Defense. We continue to build on these programs and to 
expand them out. Should we falter in our commitment to 
developing African peacekeeping capacity, the consequences will 
be heavier burdens on the international community as a whole, 
on the United States and our partners whether through 
deployment of more U.N. blue helmet operations or even direct 
military interventions in the cases where our own national 
security is at stake.
    It is clearly in our interest to support U.N. peacekeeping 
programs across Africa. It is in our interest to support the 
AU's capacity building in this area, and it is in our interest 
to support the subregional efforts which are designed to 
maintain the peace and prevent greater crises from occurring.
    I want to thank the committee again for the opportunity to 
address you on this important issue. I have a longer written 
statement that has been given to you. I welcome the opportunity 
to be here and to take your questions after my colleague 
speaks.
    [The prepared statement of Mr. Carson follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Smith. Ambassador Carson, thank you very much.
    Dr. Brimmer?

STATEMENT OF THE HONORABLE ESTHER BRIMMER, ASSISTANT SECRETARY, 
 BUREAU OF INTERNATIONAL ORGANIZATION AFFAIRS, U.S. DEPARTMENT 
                            OF STATE

    Ms. Brimmer. Chairman Smith, Ranking Member Bass, members 
of the subcommittee, thank you for convening this hearing on 
United Nations peacekeeping operations in Africa. I appreciate 
the subcommittee's attention to these important issues, and I 
am pleased to discuss the Obama administration's commitment to 
promoting peace and security across Africa through multilateral 
action and shared responsibility.
    Mr. Chairman, U.N. peacekeeping missions are a key tool to 
help bring stability to countries emerging from violent 
conflict, and to prevent conflict's return. This 
administration's support for U.N. peacekeeping is deep, and 
builds on a strong, decades long bipartisan effort to improve 
these operations' effectiveness. That support is rooted in the 
fact that peacekeeping is not a policy in itself. It is a key 
tool to deliver on U.S. policy goals. U.N. missions deploy to 
promote lasting political settlements that can in turn bring a 
durable peace. They provide backing for those who agree to put 
down their guns and to support the rule of law.
    Assistant Secretary Carson has laid out an approach to some 
of these very peace and security issues in Africa. In my brief 
comments this afternoon, I will note a few highlights of the 
seven U.N. peacekeeping operations in sub-Saharan Africa. And I 
appreciate the committee's consideration of my longer submitted 
testimony which includes a more expansive discussion of these 
missions, their objectives and the priorities that they 
reflect. These peacekeeping missions serve critical purposes: 
Supporting new country such as South Sudan; helping run 
elections in Liberia; promoting stability in Cote d'Ivoire; and 
trying to stem renewed violence in Eastern Congo. These 
missions are challenging and risky, but they unquestionably 
contribute to peace and stability across the continent.
    They are also cost effective, and in this era of increasing 
fiscal restraint that fact is worth noting. Over 70 percent of 
the annual cost of U.N. peacekeeping operations is paid by the 
rest of the world. Clearly the cost of any unilateral action 
would be far greater, and because U.N. peacekeeping takes 
advantage of collective action that leverages the unique 
expertise of the U.N., we ensure the efficient use of 
taxpayers' dollars while significantly advancing U.S. national 
interests.
    These missions are often the international community's last 
resort, and we know they face acute challenges especially in 
Africa. As you know, currently, roughly half of all U.N. 
peacekeeping operations are in Africa, comprising over 71,000 
peacekeepers, thus approximately three-quarters of the people, 
the blue helmets, are now serving.
    But these are not your father's or your mother's 
peacekeeping missions. Instead of simply observing a ceasefire 
or some political settlement under Chapter VI of the U.N. 
Charter as was often the case in decades past, and still is the 
case in several of the older missions, today's operations 
frequently have complex mandates. Today's operations have a 
range of tasks and operate, at least in the case of all the 
missions in sub-Saharan Africa, under Chapter VII authority. 
These articles of the U.N. Charter authorize the use of force 
as part of the mission's primary responsibility to restore and 
maintain peace and security, including the protection of 
civilians. These missions often operate in difficult 
environments where state authority is weak and peacekeepers are 
themselves the targets of violence. Yet in spite of these 
enhanced responsibilities and great challenges, U.N. 
peacekeeping missions have played pivotal roles across Africa.
    I will briefly touch on the missions and begin with Sudan 
and South Sudan. U.N. peacekeepers were instrumental in 
supporting South Sudan's independence under the 2005 
Comprehensive Peace Agreement and UNMISS is working with the 
new government to assist with strengthening its government 
institutions and its security sector. Also in Sudan, as with 
South Sudan, in Darfur the U.N./African Union hybrid operation, 
UNAMID, continues to play a critical role in the safety and 
security of Darfuris, taking a leading role in supporting the 
implementation of the Doha Document for Peace and helping 
ensure that humanitarian conditions don't deteriorate further.
    And then Abyei, along the tense Sudan/South Sudan border, 
UNISFA has been critical to maintaining the stability despite 
aerial bombardments by the Sudanis' armed forces, militia 
activities and ground attacks that have plagued the border 
area. There are also critical peacekeeping missions in West 
Africa, including Liberia where the UNMIL mission has assisted 
the government in strengthening its security sector and 
promoting the rule of law following years of devastating civil 
war. UNMIL has helped disarm over 100,000 ex-combatants 
including some 11,000 child soldiers, providing training for 
thousands of police officers and delivering critical support to 
the 2011 national elections which brought President Johnson 
Sirleaf a second term.
    UNMIL also boasts the first U.S. flag officer in a U.N. 
peacekeeping mission in nearly 20 years. U.S. Army Brigadier 
General Hugh Van Roosen is serving as the chief of staff, and 
he is one of 28 U.S. personnel currently serving in U.N. 
peacekeeping missions worldwide. And today with our support 
UNMIL is evolving as needs change. It is beginning to shift in 
personnel from a focus on military to more police and civilian 
personnel as it works to complete its task and transition 
responsibility for security to the Government of Liberia. In 
another operation, in Cote d'Ivoire, UNOCI peacekeepers assist 
government efforts on security sector reform. They lead on 
demobilization, disarmament and rehabilitation of former 
combatants, an effort that has been successful enough to allow 
the mission to gradually reduce its military component.
    Turning to the Democratic Republic of the Congo, MONUSCO, 
the second largest U.N. peacekeeping operation in the world, 
pursues an ambitious mandate to protect civilians and to 
support stability in a highly volatile, conflict-prone region. 
Renewed fighting in the eastern province of North Kivu has 
undermined the progress of the past few years, and reminds us 
that much work remains to be done to eliminate the threat to 
civilians posed by armed groups, and to take enduring action to 
provide effective governance in that region to address the 
legitimate grievances of stakeholders and arrive at a durable 
political agreement.
    And finally, as my colleague has already noted, in Somalia 
the United Nations provides a critical administrative support 
to the African Union through UNSOA, the support office to 
AMISOM and its field office. And this relationship demonstrates 
how multilateral engagement in conjunction with bilateral 
partners can assist regional partners in their efforts to 
support Somali authorities to effectively eliminate the threat 
from al-Shabaab.
    Mr. Chairman, no two missions are the same, but across the 
missions we see both best practices and critical challenges 
that deserve attention, and we need to continue to work to 
improve operations and to enhance their effectiveness. We need 
to continue work on the protection of civilians. It is a core 
task for all peacekeepers, military, police and civilian 
throughout the life of a mission. We need to work crucially on 
dealing with sexual and gender-based violence. And in the 
question and answer I would go into more detail about how we 
are addressing this incredibly important issue and how to 
further work to enforce the U.N.'s zero tolerance policy on 
exploitation. It is extremely important. We also need to work 
to support the rule of law and policing to ensure successful 
transition back to governments. We need experienced leadership. 
It is crucial to these operations to carry out their mandates. 
And we think more women need to be included in missions.
    And finally, we need to maintain fiscal discipline in 
peacekeeping budgets particularly in the current economic 
climate. The United States has led this charge, and overall 
budgets this year are approximately $500 million less than they 
were last year, saving the United States taxpayer nearly $141 
million.
    I thank the committee for their support over the years in 
helping ensure the United Nations peacekeeping operations 
remain a useful and cost effective tool that serves U.S. 
foreign policy goals throughout Africa and the world, and I 
look forward to discussing these issues further and welcome any 
questions you may have. Thank you.
    [The prepared statement of Ms. Brimmer follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Smith. Dr. Brimmer, thank you so very much, and for 
your and Ambassador Carson's service to our country and to the 
world, especially Africa.
    Let me just ask a couple of questions and then yield to my 
distinguished colleagues. Again, both of you, especially you, 
highlighted the issue of a budget and what is being spent and 
what is not. I wonder if you could provide, and this might be 
better for the record, but for the current peacekeeping 
operations, the unmet needs for each of them, I know we get 
fact sheets all the time from the U.N. about troop strength and 
how much is being spent, but we don't always get the 
information about what the real needs are. That way, we know 
where the gaps are and whether or not a more robust effort 
could be made with the other donors, but as well as ourselves, 
to ensure that adequate funds are there so that those 
peacekeeping strengths are not less effective due to 
insufficient personnel. That would be a very helpful, where the 
unmet need is. And it is a question I always ask of UNHCR and 
others so that we really have a guide. The numbers don't mean 
as much if you don't know what is not being done because of 
lack of resources. So if you could provide that for us or maybe 
speak to it now that would be very, very helpful on that unmet 
need.
    And secondly, Ambassador Carson, thank you for underscoring 
in your testimony that the U.N. monitoring group reported in 
June of this year that Somali terrorists, al-Shabaab, and you 
quoted them, quoted the monitoring group, ``has suffered 
dramatic reverses over the past year, experiencing military 
defeats, the loss of territory,'' and we have all been 
applauding as that has been happening, ``and the erosion of its 
revenue base, setbacks that have exacerbated risk within the 
group's leadership,'' and as you point out, this is directly 
attributable to the success of African-led AMISOM. It is no 
exaggeration, you point out, that through the peacekeeping 
efforts the AU has given Somalia and its long-suffering people 
their best chance for sustained peace. And I mean that is a 
success story that this committee and members of this committee 
follow closely, but from the press point of view and so many 
others it is hard pressed to accept that allAfrica and perhaps 
a few other places to find that really highlighted and 
underscored.
    We limited the defects and the failures. We all remember 
UNPROFOR in the former Yugoslavia and the utter disaster that 
was, what happened in Rwanda when key triggers and red flags 
were ignored, but here you have a great success story, and 
perhaps we should all bring much more attention to that and I 
hope the press will likewise amplify peacekeeping works. And it 
has saved many, many lives for the long-suffering people of 
Somalia, so you might want to just elaborate a little bit on 
that.
    And next if I could on the very critical issue of rules of 
engagement, it is always a key question of protection of 
civilians, which you both emphasize, which sometimes is less 
than stellar, and it is not the troops in the field but it is 
the people that write the rules of engagement. If you might 
want to speak to how robust those efforts are so that those 
civilians can indeed be protected.
    And I would ask you, Dr. Brimmer, maybe you wanted to touch 
on this, to get further into the trafficking side. Where was 
it? There was a U.N. report that made it very clear that last 
month U.N. says that it withholds payments for peacekeepers 
involved in sexual abuse or trafficking of persons. That was 
put out last month. If you can tell us how well that appears to 
working, and if you could also just speak to the issue of what 
kinds of training packets, what kind of training are 
peacekeepers actually given?
    Everywhere I go I ask to meet with leaders in various 
countries to find out exactly what their country does when a 
peacekeeper or any member of their armed forces is complicit in 
human trafficking. I wrote the Trafficking Victims Protection 
Act and in 2005, the minimum standards update said that we will 
assess, for purposes of assigning tier ratings, how well or 
poorly a country's military is doing. That is a very important 
part of it if they are deployed soldiers. So if you could give 
us a real insight into what are they telling peacekeepers they 
must do to ensure that they get the right human rights training 
in general and human trafficking part in particular.
    And then finally, if you could speak, Ambassador Carson 
perhaps, to the African Standby Force, the ASF, as you talked 
about. You mentioned various stages of readiness or lack of. 
What does that really mean; how deployable are they; when will 
they be deployable for missions?
    I yield to my very distinguished friends for answers.
    Mr. Carson. I think the first question, I think, was 
clearly for Dr. Brimmer, and that is with respect to broad, 
ummet needs, and she can do that one. I will be glad to take 
the second issue that you raised with respect to the Somolia 
AMISOM peacekeeping operation and really what that signifies 
and means. Dr. Brimmer, maybe trafficking and then finally, 
trafficking and sexual exploitation. And the last one, African 
Standby Force, I will be glad to talk to.
    Ms. Brimmer. Certainly.
    Mr. Carson. Good division of labor?
    Ms. Brimmer. That sounds very good. All right, Chairman, 
with your permission I will jump in on the response.
    The first off is as you say, it is very important to try to 
understand what are the needs of the different operations to 
make sure that we are continuing to tailor the operations to 
what the actual needs on the ground are, as I said earlier that 
peacekeeping is a tool to accomplish other activities. And so 
what we do in addition to working with the U.N. itself is we 
are also now ourselves trying to look at what is needed in 
these operations, to look what is actually happening. And I can 
share with you that even from the State Department's point of 
view, my own deputies actually travel to look at peacekeeping 
operations, to look under the hood to see what is actually 
happening. So I had my deputy travel to West Africa to look at 
key operations. And actually now as we speak, Ambassador 
Torsella, who covers the administrative and budget issues at 
our mission in New York, is actually en route and actually 
flying now and he will be going out to look at both at UNAMID 
and at UNISFA, again to understand what is happening and what 
needs may not be covered so that we stay current. Because 
indeed, we have to make sure that we are tailoring the 
operations to address what is actually going to benefit people 
on the ground.
    Mr. Smith. As that analysis is done----
    Ms. Brimmer. Yes.
    Mr. Smith [continuing]. I know having been in office 32 
years that very often you find real needs and then get conveyed 
at OMB, a redlined number of what is doable or not doable. We 
need to know, frankly, to be real partners in this effort, what 
really is the unmet need? So as much of that raw information 
that you can convey to the committee, it would be very helpful.
    Ms. Brimmer. Mr. Chairman, we very much appreciate that 
opportunity and we look forward to working with you and your 
staff on putting that material together. Thank you.
    [The information referred to follows:]
Written Response Received from the Honorable Esther Brimmer to Question 
     Asked During the Hearing by the Honorable Christopher H. Smith
    Every peacekeeping operation is different, but there are common 
challenges across missions that could benefit from greater support. 
Some cross-cutting issues are systemic in UN peacekeeping missions. 
First, there is an urgent need for expanded access to relatively scarce 
``niche'' capabilities--in particular in aviation, engineering, and 
medical capacity--in many missions. Second, there is an ongoing need 
for mission-specific and scenario-based training, particularly in new 
missions like the United Nations Mission in the Republic of South Sudan 
(UNMISS), to help missions implement their goals. This is especially 
needed for missions mandated to protect civilians under Chapter VII of 
the UN Charter. Third, there is a need for dialogue with both the UN 
and troop and police contributing countries on the operational 
readiness, performance, and evaluation of troops and police, to help 
ensure that the personnel deploying to missions are fully prepared and 
fully briefed on human rights and the requirements for appropriate 
conduct, particularly with regard to sexual exploitation and abuse. 
Fourth, there must be measures in place for the safety and security of 
UN personnel and strategies for risk management, especially when 
operating environments are non-permissive, such as in Darfur. Fifth, 
there must be increased integration between peacekeeping and 
peacebuilding, so that the gains that the missions achieve in the field 
are made sustainable through the strengthening of institutions that 
promote the rule of law, human rights, and good governance, elements 
which are key to establishing a stable peace. And finally, there is a 
strategic need for effective transitions, so that the UN can retain 
best practices and lessons learned. We are working to help missions and 
the UN address these issues, and are prepared to brief on any of these 
elements.

    Mr. Carson. Mr. Chairman, thank you for highlighting the 
success that has been achieved in Somalia and in Mogadishu. As 
I noted in my initial comments, we believe that a great deal of 
progress has been achieved in Somalia over the last 3\1/2\ 
years. For the first time in 2 decades and 2 years, we now have 
in place in Mogadishu, a government which has a firmer 
foundation and greater legitimacy than at any time since the 
late 1990s.
    I myself had an opportunity about 6 weeks ago to travel to 
Mogadishu. I was the highest ranking U.S. official from the 
State Department to visit Somalia and that part of Somalia in 
close to two decades, since the Black Hawk Down scenario event 
that you mentioned.
    As I said, a great deal of progress has been achieved. We 
have a new Constitution, a new Parliament, a new speaker and a 
new President. And we have for the first time in two decades a 
real opportunity for greater stability, and all of this has 
been achieved in part due to the efforts of AMISOM, primarily 
the troops from Uganda, Burundi, now Kenya, and troops from 
Djibouti. We expect by mid-October they will be joined by 
troops from Sierra Leone. Almost all of these troops have 
benefited from training and funding and equipping from the 
United States through our GPOI program and through our ACOTA 
program, which is a part of that. We, in doing this, have been 
able to degrade and to effectively disperse and make 
significantly less effective a fighting force, al-Shabaab, and 
this is clearly in our interest. We have been able to achieve 
this with Africans and African governments and African troops 
in the lead. We have been a consistent and a strong supporter 
of their efforts, but it has been the Africans who have 
recognized that the instability in Somalia constitutes a threat 
to them as well as the region and the international community. 
And they have taken the lead in defeating this threat with us 
in the lead. We have contributed a substantial amount 
financially to this effort, but we haven't lost a soldier or a 
man or a woman in the process. And I think we are all better 
off for this operation.
    Moreover, I might add that we have been the largest, 
single, bilateral contributor to the AMISOM effort. Although 
the European Union and the U.N. through its AMISOM support 
program have been strong partners in the effort, we have helped 
to resource what is a collective achievement led by Africans on 
the ground to respond to a crisis in their region and one that 
impacts them. It is a real success out there because it helps 
to stabilize that country. Helps to defeat al-Shabaab, who has 
had some of its top leadership associated and affiliated with 
al-Qaeda. It has led to the deaths of the top leadership in al-
Qaeda, East African individuals who were associated with the 
bombing of our Embassies in Nairobi and Dar es Salaam in 1998. 
And this is quite a significant achievement. We hope that we 
can build on it, but it does show what can be done in a strong 
collaborative effort with us working with Africans and African 
institutions supporting a hybrid peacekeeping operation.
    So we are very pleased by what has happened. It is not the 
end of the book, it is just the end of one of the early 
chapters in a book that will have many other chapters of 
recovery and rehabilitation associated with it. But this is 
serious and significant progress that has been achieved.
    Mr. Smith. Several questions that I asked, if I could just 
get back to them. The ASF, varying degrees of readiness, if you 
could just touch on that. And this issue of, what exactly does 
the human rights training look like? And I mentioned the U.N. 
policy of withholding payments. Is that working? Mali also, if 
you could touch on that.
    And one last thing you mentioned, Ambassador Carson, the 
Dar es Salaam and the Nairobi bombings. For the record, I held 
all the hearings, in the House at least, that followed that 
terrible, terrible loss of life especially in Kenya and 
Tanzania. And I will never forget when Admiral Crowe sat where 
you sit and talked about the lack of readiness on the part--
even though we had al-Qaeda doing some horrific things before 
that we didn't think transnational terrorism, as Secretary 
Carpenter testified at the time, would go after what were 
thought of as more secure U.S. missions or outposts. And from 
that I actually wrote what is called the Admiral James W. Nance 
and Meg Donovan Foreign Relations Act, Fiscal Years 2000 and 
2001, which had a heavy emphasis on setbacks and Embassy 
security.
    And one of the questions I am going to be asking and you 
might want to do something for the record on this, I mean we 
still have deficiencies no matter how much we try to shore up, 
review setbacks, protect our ambassadors, and we are all 
heartbroken over the loss of our Ambassador to Libya as well as 
the other three individuals who are heroes, all four, but we 
really have to get to the bottom of what can we do better to 
ensure that no one else is hurt. It is why we have danger pay, 
because we know that divisions worth of people called the 
Foreign Service who are in absolutely hazardous places all over 
the world. But we might be able to do a better job in Congress 
to ensure that those threats are further mitigated. But you 
might want to get back to us on that. I am thinking of a 
hearing itself focused more on what do we do, what are we 
missing? But anything you can suggest to us, if there are law 
changes, something that needs to be done, and I know the 
administration is looking very seriously into what did happen. 
But if you could speak on those issues, ASF, the training 
packets.
    And then I will go to my colleague.
    Ms. Brimmer. Thank you. Mr. Chairman, I thought I would 
take up the question on the rules of engagement.
    Mr. Smith. Please.
    Ms. Brimmer. And then I will turn to the trafficking issues 
and then maybe just touch on the training issues, to many of 
those questions, and respond to some of the points that you 
both made in your opening statements.
    Just in terms of the rules of engagement, one thing to 
notice as I say that over the past generation looking at 
peacekeeping issues is that we see a more robust use of the use 
of force by peacekeepers. They are of course authorized to use 
the use of force to protect themselves and their mission, and 
now most crucially to try to protect civilians. That is a huge 
job. And we recognize that there is so much more to try to do. 
They are often working in countries that are very large. But I 
thought I might highlight some of the efforts in this area in 
particular. That we notice that they are I say engaged in more 
difficult places. We even note that even in the case of Somalia 
in the hybrid mission that most recently there was an attempt 
on the life of the new President, but it was the African Union 
troops that actually helped defend him. One was actually killed 
in that point. But they were using robust use of force.
    But I think we should also note that there have been 
efforts in important areas, for example, like, I will just take 
MONUSCO in particular in the Congo that has also used, has had 
independent military operations to work on dealing with sexual 
violence in that country. They have also tried to be much more 
robust in their efforts of trying to free children from armed 
groups. There is a much greater understanding of the efforts to 
try to use the tools of the peacekeeping operations in what is 
still an extremely difficult and extreme situation. But again 
it is kind of the creative use of understanding appropriate use 
of force for peacekeeping operations.
    If I may turn to the trafficking and sexual exploitation 
and abuse issues and just take a few minutes to maybe to 
develop this. This is such an extremely important area. As you 
noted that this year for the very first time we have been able 
to get into on the funding side of peacekeeping, a link, that 
does withhold funds from troop-contributing countries based on 
if there is misbehavior by particular troops. That is the first 
time we have actually been able to get passed through in the 
U.N. system. That is a new mechanism. And that is what 
demonstrates we are trying to look at every tool we can use to 
try to combat this particular scourge. Will this build on our 
efforts in other areas as well? And we start all the way 
upstream. How do we work on improving the training for the 
peacekeepers that are actually being deployed in the field? And 
as my colleague has already outlined that of course there is 
important training provided by the United States. Other things 
we do are we also talk to other countries that are providing 
training for peacekeepers. We visit peacekeeping training 
centers. We see the curriculum. Myself and my colleagues have 
been briefed on the curriculum, how sexual exploitation is 
being dealt with and explained in key troop training centers 
around the world.
    We also raise this issue bilaterally in our regular 
conversations with other countries. So if I just take the 
example of Uruguay. Now with Uruguay as you know that there was 
an incident with their troops, and I say no country is perfect 
here, but I will note that they did bring their troops home and 
try them. Because ultimately, the United Nations can't enforce 
the behavior of individual militaries. National governments 
have to do that. So we make sure we raise that to, as the 
United States. So when I was actually in Uruguay talking to 
them because they are important troop contributors, I raised 
this issue. It is something my colleagues and I do on a regular 
basis. We also look at how well the U.N. as well works the 
troop contributing countries, and the Department of 
Peacekeeping Operations has a package of materials that they 
provide to countries when they are going to contribute troops 
that also contains these materials. So these are important 
steps upstream.
    But then we also think it is important to look at what 
actually happens when we unfortunately have incidents. And 
there again the question is what national governments do is 
extremely important, and they have to work both with all of the 
peacekeeping personnel. Military personnel, police personnel 
and civilians, and there are slightly different rules for 
those. Most importantly that the military personnel are usually 
governed by the rules that govern their own national military, 
so it is important that they in their national systems use 
those mechanisms. Civilians, depending on whether or not they 
have diplomatic immunity, may be subject to the laws of the 
country. So in each of these we are trying to look at what are 
all the tools we can deal with in the address of this, it is 
still extremely serious. There is still a lot more work to do. 
We are still trying to see what else we can do to continue to 
work on this issue, but we take it extremely seriously.
    Mr. Carson. Mr. Chairman, just a quick sentence on the five 
brigades. As I said in my testimony, none of the brigades are 
fully operational. The weakest of the five standby brigades is 
in North Africa, and because of the developments of the Arab 
Spring over the last year, year and a half, they are focused 
inward and not on the standby force. The Eastern African 
Standby Force is probably the most robust and capable. It has 
some of Africa's better armies, Ethiopia, Uganda, Kenya. It has 
provided the command and staff headquarters for the AMISOM 
operations in Mogadishu, and it has been able to carry out both 
field and headquarters exercises.
    The Economic Community of West Africa also has a number of 
large armies. They have shown some capabilities, but they too 
would require enormous outside assistance to be able to 
effectively mobilize as an operational brigade. The central 
African multilateral, multinational force would probably rank 
just above the North African force in terms of its limited 
capabilities and operational capacities. And the Southern 
African Development Community does also have a number of very 
capable armies, South Africa and Botswana, that could be drawn 
upon to carry out peacekeeping operations. They have engaged in 
joint training and some training operations and exercises.
    Ms. Bass. Yes, thank you very much for your testimony, and 
many of the questions I asked in the beginning you did touch 
upon.
    I wanted to follow up though on the individuals that are 
peacekeepers that might have committed crimes, especially 
sexually oriented crimes. So when they are caught, what 
happens? Are they sent back home? Are they incarcerated? And I 
understand in part it depends on the country that they are in, 
but maybe you could give a few examples.
    Ms. Brimmer. Thank you, Ranking Member Bass. I will give 
some examples and we can also follow up with a sort of fuller, 
if I may, fuller treatment or fuller examples as well. That 
indeed as I mentioned that you, in a sense, have to look at 
peacekeepers in three groups. The military, the police and the 
civilians, and that the question is when they are caught that 
they go back to their national contingent. Some countries at 
that point then will ship them home, some may then have their 
own national procedures. But it goes back to the military 
command for those particular individuals. The police, in some 
cases the police have their own separate command. In some cases 
the police are then under with the military, again depending by 
country. And then for civilians that depends who the civilian 
is and who they are working for. Is this a civilian who is 
working directly for the United Nations? Then that is a direct 
issue it it is their own staff member. If it is a civilian 
working in some other capacity, there again it may be possible 
to prosecute them under the individual laws.
    What I would like to do is be able to, I can actually just 
spell out in greater detail, if you would like me to do a 
follow-up, with some of the examples of what has happened in 
different cases. And it really has varied by country, I 
mentioned Uruguay. In a different case, Pakistan actually flew 
out a judge from Pakistan to Haiti. Different region, but there 
was an issue in Haiti, and they then sent their own judge out 
to then conduct the legal proceedings in Haiti even before they 
sent them back with the peacekeepers. So different countries 
have followed different models, and those are some countries 
where countries actually took on board the issue and tried to 
address it. Other countries have not had that same strong 
record. We will be happy to follow up on greater detail and 
send that to you.
    [The information referred to follows:]

Written Response Received from the Honorable Esther Brimmer to Question 
Asked During the Hearing by the Honorable Karen Bass, a Representative 
                in Congress from the State of California

    First, we share your deep concern about this problem, and are 
working to support needed reforms. Second, as you know, disposition of 
serious cases depends on the category of the individual. Military 
personnel are subject to discipline by their own chain of command. The 
UN Office of Internal Oversight Services investigates allegations of 
misconduct against police personnel. Civilian staff may be dismissed 
and, depending on circumstances, tried locally or in their country of 
residence or nationality. The results can vary due to a number of 
factors. Actions illegal in one country may not be illegal in another; 
alternatively the host country or country of residence may choose not 
to pursue a case, and so on. The UN regularly requests updates from 
sending countries on their disposition of cases, but does not have the 
authority to enforce reporting.
    We are concerned that proper action be taken in such cases, and we 
follow up bilaterally whenever we are aware of a serious violation of 
the code of conduct. In one example, our Embassy in Rabat communicated 
with the Government of Morocco after learning that members of a 
Moroccan military contingent serving in Cote d'Ivoire were accused of 
patronizing prostitutes. In response to our communications, Morocco 
informed the Embassy that it had withdrawn and replaced the whole 
contingent, reviewed the case under military procedures, and 
disciplined those individuals found to be guilty of misconduct.
    There was also a very troubling case involving an American citizen 
serving as a UN international civilian employee in Liberia who was 
charged with molesting underage girls. The Liberian government, the UN 
mission, and the U.S. Embassy cooperated during the investigation. The 
UN was prepared to waive his immunity, if any; the U.S. Government made 
arrangements to fly him home for prosecution under Federal law; and the 
Liberian government placed him under house arrest pending the transfer 
to U.S. authorities. Regrettably, the individual committed suicide 
while in custody in Monrovia. The UN offered medical and legal 
assistance to the girls he had molested, which was accepted in one 
case. Although the circumstances of the whole case were distressing, in 
fact the system worked--the allegations were made and investigated, the 
perpetrator taken into custody and facing trial, and the victims given 
appropriate support.

    Ms. Bass. Do you have situations of countries where that is 
not viewed in the same way we would view it, where they make 
light of it or send the person to another country or another 
division or cover it up? And if that happens what can be done?
    Ms. Brimmer. Well, I think first, I mean no country wants 
to have a reputation for particularly problematic units. I 
think some countries have had more innovative approaches, who 
have actually thought about how to do it. As I mentioned, some 
countries have brought them home and had a process, others have 
said, no, we will deal with it right in this situation. So it 
is varied. And what we try to look at is particularly those who 
have taken it seriously, which might be models for others, and 
as I say, we also try to follow up in the bilateral context to 
stress that the United States takes this very seriously. So 
this is something that we raise regularly with our 
interlocutors when we are talking about peacekeeping and on 
making it better.
    Ms. Bass. I appreciate that. Well, on another subject, I 
wanted to know if either one of you could talk to me about the 
cap that Congress actually has on U.S. contributions to U.N. 
peacekeeping that some describe as arbitrary, because I don't 
understand very much about it. If you could explain that I 
would like to know why it is considered arbitrary. And then 
also if it isn't, I understand it isn't a new issue, but that 
it also causes us problems, compromises how we are viewed in 
other parts of the world.
    Ms. Brimmer. If I may I will jump in on this question. 
Ranking Member Bass, as you know that the United Nations budget 
is divided into the regular budget and the peacekeeping budget. 
At the regular budget the United States pays 22 percent of all 
costs.
    On the peacekeeping side, the five countries that are 
permanent members of the Security Council pay an additional 
amount, in a sense, an additional premium. They have additional 
rights and responsibilities for international peace and 
security. Under that there is then a formula that is set every 
few years about what the rate will be for all the members that 
contribute, but we will actually focus particularly on ours and 
what is happening with that. It is based on the calculation of 
relative economic strength of the actual U.N. member states. So 
that calculation is then raised by, is recommended by the 
secretariat, it then goes to the General Assembly that then 
approves the whole process with that.
    But ultimately it is an allocation that looks at the actual 
cost for peacekeeping and actually looks at the actual 
strength, economic strength of the different countries. So 
under that we pay over 27 percent currently. It is currently 
under discussion about what will be the next rate. The 
challenge of having a line set for the peacekeeping rate is 
that that is below the rate which was actually set for the 
United States. It means that operations are not fully or 
properly funded, and it doesn't directly relate to what is 
actually the relative strength, economic strength of different 
countries.
    So I note that while the issue is now currently under 
discussion for the next 2 years about what will be the rate for 
the next 2 years, it is important to note that one of the 
conversations is the relative strength. So one of the things 
that we would expect is that the rates for Russia and 
especially China will increase, because obviously they are in a 
different economic situation even than 3 years ago when we last 
looked at it, and we think it is important that their rates do 
increase, as we expect they will. But the challenge here is 
that if we set a rate below what is actually mandated it means 
there will be a gap and key operations would not be funded. And 
there will be key operations in areas that we think are 
important.
    Ms. Bass. So you are saying we set that.
    Ms. Brimmer. Oh, the United States plays----
    Ms. Bass. I know you are talking about the formula, but you 
are also saying then that the U.S. comes in and sets a level 
that is----
    Ms. Brimmer. Well, I am saying that if there were to be 
legislation that were to set a level below the level which is 
actually where the United Nations has set for the United 
States, there would be a gap between what the real cost of the 
operation is----
    Ms. Bass. Right.
    Ms. Brimmer [continuing]. And what we are saying we are 
willing to pay. If we don't meet our actual legal commitment to 
the right level, key operations won't be funded. And we try to 
make sure that of course that rate be as appropriate as 
possible, but we recognize it is based on, what are the costs 
of these actual operations, and what are the relative economic 
health of the different countries that contribute to the United 
Nations system?
    Ms. Bass. Okay. And then finally, I just can't sit here and 
not ask you to comment on the current situation. And I don't 
know if that is appropriate for you, Ambassador Carson, but 
what can you share about what is going on? And I mean again it 
is just really hard to believe that some wacky YouTube video--
--
    Mr. Carson. Let me say that, first of all, I am not focused 
on a day-to-day basis on the events in the Middle East, and the 
Maghreb which is a part of Africa falls under the jurisdiction 
of the Middle Eastern bureau at the Department of State. But I 
can say that we are, as a department and a nation, deeply 
troubled by any attacks that are undertaken against our 
Embassies and our personnel abroad, our American citizens as 
well as host country nationals who work with us in those 
countries. And we don't think that any political or regional or 
religious justification exists for attacking American 
diplomats.
    In the case of what we are seeing across the Middle East, 
we believe that there are probably different and complex 
reasons for the kinds of reactions that we are seeing in 
different countries. We see, first of all, a region that is in 
transition, a region that is troubled, a region that is moving 
toward greater openness and democracy. We see fragile new 
governments that are trying to establish authority, and trying 
to put in place institutions and have weak control over their 
security services.
    The second thing I would say broadly is that in some of the 
countries, particularly in what we have seen in Egypt, we are 
clearly seeing the population there react to a couple of videos 
which have been released here. One by a religious figure in 
this country, another quite frankly, by unknown individuals. 
These videos have mocked and degraded the life of the Prophet 
Muhammad, and it has led to reactions and street demonstrations 
and violence against U.S. institutions. It is deeply 
unfortunate that people would use this as a reason for 
attacking our facilities or our people. And certainly in Egypt 
that is the case. But I would say that there are probably 
underlying reasons too of transition, weakness of government 
authorities and frustration on the street about other elements 
of society.
    In Libya, the situation is far more complex. And 
increasingly it appears that the attack against our facilities 
there may have been motivated by political considerations and 
that it was not these degradations of the Prophet Muhammad that 
led to these. There is a thorough investigation underway, but 
these might turn out to be terrorist attacks that were well 
planned and well orchestrated and therefore resulted in the 
very tragic and unfortunate deaths of our colleagues in the 
State Department.
    I think from country to country there is a difference, as 
to say Egypt and Libya present two different kinds of 
situations, just as the situation in Yemen and in other places 
in the Maghreb have different causes for concern. But we are 
going through a period of turbulence there as we see 
authoritarian and autocratic governments being replaced by new 
institutions, some stronger in their democratic adherence and 
commitment than others. But many are not only weak but new, and 
grappling with the ability to control the fast-moving events of 
their societies.
    Ms. Bass. All I have had a chance to do is catch the news 
coverage, and especially today in between hearings. And I guess 
a few things that were very disturbing to me were in Egypt, 
apparently the President didn't come out and really condemn the 
violence. And then there was some question about whether or not 
the Muslim Brotherhood was going to take the lead in organizing 
a protest. Again, the problem with up-to-the-minute news is 
that it might have been a fictitious report, but that is what I 
heard last. And then the concern about Libya just makes me 
wonder about Mali in terms of what happened with the folks 
leaving from Libya going into Mali. Is this going to have 
implications for problems that are already happening there? And 
I don't know if there has been any report of that.
    Ms. Brimmer. If I may just add particularly as well that 
just the outpouring support that we have seen, as well as the 
Security Council immediately took up this issue yesterday and 
immediately condemned the attacks. So I think it is important 
to note that all 15 combined consensus' immediately understood 
the import of the issue. And as you mentioned already, the 
leadership in Libya has spoken out rejecting the violence.
    I think it is also important to note that how we honor the 
fallen by remembering their mission. So in this also we are 
recalling, and I am just looking back at the President's words 
yesterday where he talked about the legacy of the Ambassador 
``will endure wherever human beings search for liberty and 
justice.'' I think as also we have seen in the outpouring at 
least from our colleagues at the U.N. that we hear from who are 
remembering the work we are still doing in Libya. There is an 
important political mission in Libya, a U.N. political mission 
there, and recommitting to the goals that they are working on. 
So I think as part of the both condolences, we are hearing also 
is again support for the very mission that our governments are 
working on from many of our colleagues. I know that Ambassador 
Carson is seeing the same thing in his post where we are seeing 
in all the multilateral posts, condolences coming, but again 
committing to the values of the Libyan people and trying to 
reject those who are turning to violence. I think that is an 
important component of the global reaction to the tragedy.
    Ms. Bass. Thank you. Thank you very much.
    Mr. Smith. Let me just ask a few final questions, and 
beginning first with, maybe it is you, Ambassador Carson, or 
either of you, Dr. Brimmer.
    Is there a peacekeeping mission not yet constituted that 
needs to be established?
    Mr. Carson. Speaking from the African perspective, we 
believe that the current peacekeeping missions that exist, plus 
those that are being led by the Africans themselves are 
addressing the key and fundamental issues that Africa faces. 
Clearly the one area where there is a possibility of African 
countries on a subregional basis coming together to work is in 
Mali. ECOWAS has indicated a desire to be supportive and 
helpful in putting together a force that would go in and assist 
the Malian Government. But at this point, this is only in the 
very, very early planning stages, and like other subregional 
peacekeeping regions that are in existence and that I have 
spoken about would have to be well resourced and well planned 
in order for it to be effective.
    Mr. Smith. [Inaudible.]
    Mr. Carson. Pardon me? No specific region. And I just focus 
on what ECOWAS is discussing preliminarily about Mali. They at 
this point have not approached the AU nor the U.N. for the kind 
of detail of support resources that would be necessary to get 
this underway. Still in its very, very initial stages.
    Mr. Smith. Let me just say a word or two--or did you, Dr. 
Brimmer? I don't want to--please.
    Ms. Brimmer. Mr. Chairman, thank you. You had asked both 
about Mali, and of course Ambassador Carson has talked 
particularly about the early stages that we are looking at. And 
I would just say that it perhaps includes insights into some of 
the thinking about peacekeeping operations that as I mentioned 
earlier we think about how you fit the right tool to the 
situation. And as we look at the questions, what is the right 
tool? That we look at, of course there is a humanitarian crisis 
and there is important engagement by both the United States 
that is providing humanitarian assistance, but also even 
through the U.N. we are providing much assistance on the 
humanitarian side. There are both counterterrorism issues as 
well as security issues. So trying to fit the tool to the 
situation is so important, and that is why we are looking at, 
what are all the different arrangements? A peacekeeping 
operation may or may not be the right one. Maybe a political 
operation is the right one. Maybe it is another tool. And so we 
are trying to think about what are the global tools, the 
regional tools, the bilateral, what is the right mix? Because 
there is no one model that fits everything and we try to figure 
out, see what is appropriate. And that is where it came back.
    Mr. Smith. Thank you. As we all know, U.N. peacekeeping is 
hazardous. And the blue helmets, a few years back, were rightly 
cited for the Nobel Peace Prize, for the bravery which often 
goes unheralded, and the deficiencies obviously focused upon to 
the detriment of all the good that they accomplish.
    And I am wondering, since there are deaths, we know how 
hazardous it is, there are wounded peacekeepers, could you 
perhaps for the record, or if you have it available now, give 
us a sense of how many peacekeepers have been injured, whether 
or not there is a PTSD component as we have had with every war 
we have been engaged in, and there has to be, I think. There 
are peacekeepers, just like any deployed man or a woman service 
member, who see things that no one should see.
    And just for the record, I chaired the Veterans' Affairs 
Committee for a number of years, and wrote a number of laws on 
the health care side including the establishment of polytrauma 
centers. And the closest one to here in Washington is in 
Richmond. And I have been amazed as those polytrauma centers 
deal as DoD hands off to the VA, men and women who have deep 
brain injuries, loss of limbs, where otherwise they might have 
died in the past, are brought back by the coordination of the 
treatment of their injuries by a group of doctors, nurses, and 
highly skilled personnel to ensure the greatest possibility of 
a life with less handicap going forward. And I really don't 
know this, what do we do to assist those men and women who are 
injured who might be PTSD? Our VA, as you know, has written the 
book on how to deal with that issue, and it goes back obviously 
to the work to help our Vietnam veterans when it really burst 
onto the scene in the early '80s, if not before. But 
polytrauma, do we do any sharing through our personnel?
    And I would just say paranthetically, I will never forget 
in the early 1980s, making trips down to El Salvador during the 
years that the FMLN, when mines were being used, foot taker-
offer mines that they called them, that the FMLN was using, and 
it was right here in Washington that our military hospitals 
provided and helped with prosthetic devices, especially to the 
children who were losing limbs.
    So do we help these peacekeepers? Saying nothing 
detrimental whatsoever to health care that might be provided in 
various African countries, but again when it comes to dealing 
with battlefield injuries no one does it better, in my humble 
opinion, than the VA.
    Ms. Brimmer. Mr. Chairman, thank you very much for that 
question. If I may provide some information at this point and 
then follow up for the record with additional information. That 
just a data point is that the total number of fatalities from 
peacekeeping operations since 1948 is 3,017. But of course we 
will respond with a fuller discussion of that.
    Mr. Smith. With a break out to Africa and especially the 
recent ones that would be very helpful.
    Ms. Brimmer. We would be happy to give you more detail 
broken out by region.
    [The information referred to follows:]

Written Response Received from the Honorable Esther Brimmer to Question 
     Asked During the Hearing by the Honorable Christopher H. Smith

    Thank you for asking this question. Peacekeepers do face challenges 
in the field that require greater attention. The UN has kept statistics 
since 1948 on deaths in peacekeeping missions, broken out in various 
configurations. The total number of fatalities in UN peacekeeping 
missions from 1948 through August 31, 2012 (the most recent 
compilation), is 3,025. The total number of fatalities for all UN peace 
operations in Africa since 1948 is 1,477. Of the current missions in 
Africa, the totals since their date of creation are: UNMIS/UNMISS 
(Sudan/South Sudan): 61; UNOCI (Cote d'Ivoire): 98; UNMIL (Liberia) 
168; MONUC/MONUSCO (Democratic Republic of Congo): 208; UNAMID 
(Darfur): 124; UNISFA (Abyei): 7; and MINURSO (Western Sahara) 15. 
These figures include deaths by accident, illness, malicious intent and 
other causes.
    Additionally, we note significant gaps in health care and medical 
treatment for troops from various countries and in missions while in 
active service. The UN has consistently asked troop contributors to 
provide field hospitals for the missions in more challenging 
environments, such as the Democratic Republic of Congo.
    Assuming that local medical facilities do not meet UN standards, 
contingent-deployed medical facilities provide care to all categories 
of personnel, including UN civilian staff; arrangements are generally 
made with a nearby country to provide more specialized medical care, as 
required. The Medical Services Division of the UN's Office of Human 
Resource Management plays a coordinating role and performs periodic on-
site assessments of field medical capabilities.
    Civilian staff are covered under health insurance plans, whereas 
uniformed personnel qualify for payments for death and disability 
incurred as a result of UN service (up to $70,000 USD, paid to troop-
contributing countries in the case of military contingent personnel and 
to individuals or their beneficiaries in the case of UNPOL and military 
observers).

    Ms. Brimmer. If I may also note that it does remind us of 
some of the capacity gaps, and you raised an important point. 
What happens to the peacekeeping veterans? That reminds us that 
even when they are serving there are significant gaps. One of 
them is in some of the medical care. One of the things we think 
which would actually strengthen peacekeeping are more medical 
units. These are often something that, for example, countries 
with very advanced militaries can supply are the medical units, 
to make sure people at the time of critical injury are getting 
the best care available. Because often the medical units may 
not be at the same standard that we associate obviously with 
our U.S. military. Being able to be sure that we are able to 
strengthen the police units, even as you know there is a long 
issue of getting the right helicopters to allow for the 
transport of peacekeepers. We think these are the sort of 
capacity gaps we would like to improve. We would even like to 
make sure that we are bringing in more women who would be able 
to work, particularly since they are working with civilian 
groups, thinking about what are the real capacity gaps for 
dealing with peacekeeping.
    We also think that there are resource gaps. And one of our 
concerns with the idea of a cap on peacekeeping, which has been 
raised before, is we think we need to--and we have been able to 
benefit from Congress lifting the cap at 25 percent each year 
recognizing we need to meet our treaty obligations. So as we 
think about the capacity gaps that we recognize it affects the 
abilities of peacekeepers to do their job on the ground and to 
follow up. So we will follow up for the record to those 
questions again as we try to work to strengthen peacekeeping.
    Thank you, sir.
    Mr. Smith. And I would just conclude, unless my friend and 
colleague has anything.
    That without objection I would like to put into our record 
the report to Congress on U.N. efforts to prevent trafficking 
in persons.
    [The information referred to follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              


    Mr. Smith. And also a very brief, but very good, sexual 
exploitation and abuse prevention and accountability with the 
prevention enforcement and remedial action. Without objection 
it will be made a part of the record.
    [The information referred to follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              


    Mr. Smith. And I want to thank you again for your 
leadership. I look forward to working with you going forward. 
And with some of the information, if you can convey it as soon 
as possible, that way we can work together to work on these 
issues.
    And so thank you. The hearing is adjourned.
    [Whereupon, at 4:41 p.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record<greek-l>Notice deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



               <F-dash>\\<careof><Rx><brit-pound>t<box>s\

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


        <F-dash>\<because><F-dash><Register>s<ellipse><ellipse>
       <diamond><natural><careof><acctof><acctof><box><natural>\

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
